                   U.S. DEPARTMENT OF ENERGY
                  OFFICE OF INSPECTOR GENERAL




         AUDIT OF THE MANAGEMENT OF THE COOPERATIVE

          AGREEMENT WITH TEXAS TO FUND THE AMARILLO

           NATIONAL RESOURCE CENTER FOR PLUTONIUM




      The Office of Inspector General wants to make the
  distribution of its reports as customer friendly and cost
   effective as possible. Therefore, this report will be
 available electronically through the Internet five to seven
     days after publication at the following alternative
                         addresses:

          Department of Energy Headquarters Gopher
                      gopher.hr.doe.gov

       Department of Energy Headquarters Anonymous FTP
                     vm1.hqadmin.doe.gov

  Department of Energy Human Resources Administration Home
                            Page
             http://www.hr.doe.gov/ig

  Your comments would be appreciated and can be provided on
                             the
       Customer Response Form attached to the report.

            This report can be obtained from the
                  U.S. Department of Energy
       Office of Scientific and Technical Information
                         P.O. Box 62
                 Oak Ridge, Tennessee 37831




Report Number:   WR-B-96-08          Western Regional Audit Office
Date of Issue:   August 23, 1996     Albuquerque, New Mexico 87185



         AUDIT OF THE MANAGEMENT OF THE COOPERATIVE
          AGREEMENT WITH TEXAS TO FUND THE AMARILLO
           NATIONAL RESOURCE CENTER FOR PLUTONIUM
                      TABLE OF CONTENTS



                                                       Page


SUMMARY.............................................    1

PART I   - APPROACH AND OVERVIEW....................    3

Introduction........................................    3

Scope and Methodology...............................    3

Background..........................................    4

Observations and Conclusions......................... 5

PART II - FINDING AND
RECOMMENDATIONS.....................................    7

     Involvement in the Center's
     Sponsored Research.............................    7

PART III - MANAGEMENT AND AUDITOR COMMENTS.......... 12

PART IV - OTHER MATTERS..............................14
                 U. S. DEPARTMENT OF ENERGY
                 OFFICE OF INSPECTOR GENERAL
                  OFFICE OF AUDIT SERVICES
                WESTERN REGIONAL AUDIT OFFICE

         AUDIT OF THE MANAGEMENT OF THE COOPERATIVE
          AGREEMENT WITH TEXAS TO FUND THE AMARILLO
           NATIONAL RESOURCE CENTER FOR PLUTONIUM

Audit Report Number:   WR-B-96-08     August 23, 1996

                            SUMMARY

     As the Nation dismantles its nuclear weapons, it must
confront the issue of how to dispose of the special nuclear
material taken from these weapons. To address the
disposition issue, the Department of Energy, in November
1994 entered into a five year $51.45 million non-competitive
cooperative agreement with the State of Texas. Through this
agreement, the Department provided financial assistance to
the State of Texas to establish the Amarillo National
Resource Center for Plutonium. The Center sponsored
research on issues relating to the storage, disposition,
potential utilization, and transportation of plutonium, high
explosives, and other materials generated from nuclear
weapons disassembly. The Department determined that the
financial assistance would be administered through a
cooperative agreement because the Department would have
substantial involvement during the agreement period. The
audit objective was to determine if the Department provided
adequate management, direction, and control to ensure that
the Center's activities are beneficial to the Department and
do not duplicate the work at the Department's national
laboratories.

     The Department has had limited involvement in the
Center s research projects and has not provided adequate
management, direction, and control to ensure that the
Center's activities are beneficial and not duplicative. In
addition, the Center's projects identified by the Office of
Fissile Materials Disposition as supporting Defense Programs
activities have not been reviewed. Our review, as well as a
subsequent review performed by the Department's Office of
Fissile Materials Disposition, revealed that the Department
funded about $1.8 million during the first two years of
Center's operation for research which duplicated research
conducted by the Department's national laboratories. The
duplication occurred because responsibility for technical
review was assigned at a level without authority to fully
coordinate review of the Center's research projects with the
Department's national laboratories.

     We recommended the Manager, Albuquerque Operations
Office ensure adequate Department involvement and adequate
delineation of roles and responsibilities for managing,
directing, and controlling the Center's research. We also
recommended that the Manager, Albuquerque Operations Office
establish a procedure with Headquarters Program Officers to
ensure that research proposed by the Center does not duplicate
other research initiated by the national laboratories.

     Management agreed with the audit recommendations.




                                    _______(Signed)______
                                    Office of Inspector General

                           PART I

                    APPROACH AND OVERVIEW

INTRODUCTION

     The Department funded a cooperative agreement with the
State of Texas to establish the Amarillo National Resource
Center for Plutonium. The Center sponsored research on
issues relating to the storage, disposition, potential
utilization, and transportation of plutonium, high
explosives, and other materials generated from nuclear
weapons disassembly. The audit objective was to determine
if the Department had provided adequate management,
direction, and control to ensure that the Center's
activities are beneficial to the Department and do not
duplicate the work at the Department's national
laboratories.

SCOPE AND METHODOLOGY

     The audit was conducted from August 1995 to June 1996
at the Albuquerque Operations Office (Albuquerque); Amarillo
Area Office; Amarillo National Resource Center for
Plutonium; State of Texas, Office of the Governor;
University of Texas at Austin; Texas A&M University; and the
Department's Offices of Fissile Materials Disposition and
Defense Programs.

     To accomplish the audit objective, we:

     o reviewed federal regulations, Department Orders, Office
       of Management and Budget Circulars, and Cooperative
       Agreement No. DE-FC04-95AL85832 with the State of Texas to
       identify requirements;

     o interviewed key officials of the Department, State of
       Texas, Center, University of Texas, Texas A&M University,
       and Sandia, Los Alamos, and Lawrence Livermore National
       Laboratories;

     o reviewed Center task plans, project proposals, and
       project files as well as other relevant documents;
     o requested Sandia, Los Alamos, and Lawrence Livermore
       National Laboratories to review Center projects for
       duplication; and,

     o obtained and analyzed State of Texas public vouchers
       submitted to the Department for reimbursement.

     We performed the audit according to generally accepted
Government Auditing Standards for performance audits and
included tests of internal controls and compliance with laws
and regulations to the extent necessary to satisfy the audit
objective. We limited the internal control review to the
Department's management of Center projects and the
disbursement of funds. Computer generated data was not an
integral part of the audit objective; therefore, we did not
rely on computer generated data to develop this report.
Since the review was limited, it would not necessarily
disclose all internal control weaknesses that may have
existed at the time of our audit. Albuquerque officials
waived an exit conference.

BACKGROUND

     As the Nation dismantles its nuclear weapons, it must
confront the issue of how to dispose of the special nuclear
materials taken from these weapons. Options include long
and short term storage, disposition, or utilization of the
material, such as a fuel in nuclear reactors. The materials
disposition issue is important to the Department's Pantex
Plant located near Amarillo, Texas because a significant
portion of nuclear materials inventory is currently stored
at Pantex.

     To address the disposition issue, the Department, in
November 1994 entered into a five year $51.45 million non-
competitive cooperative agreement with the State of Texas.
Through this agreement, the Department provided financial
assistance to the State of Texas to develop the Amarillo
National Resource Center for Plutonium. The agreement
formalized the Secretary of Energy's commitments to Texas
for Pantex continued storage of nuclear materials resulting
from weapons dismantlement activities as well as the
commitment to satisfy environmental, health, and safety
concerns. The Department's share of the agreement was $49
million and Texas'share was $2.45 million. The Department
determined that the financial assistance would be
administered through a cooperative agreement because the
Department would have substantial involvement during the
five year agreement period.

     The cooperative agreement envisioned the Center as a
scientific and technical information resource on issues
relating to the storage, disposition, potential utilization,
and transportation of plutonium and other materials
generated from nuclear weapons dismantlement activities.
The results of this research would also be used to advise
the Governor and citizens of Texas on matters relating to
future activities at the Department's Pantex Plant. The
Center proposed research projects that included aquifer
testing, bioremediation, chromium remediation, the use of
fissile materials as fuel in nuclear reactors, joint studies
relating to the disposition of weapons-grade plutonium with
Russian institutions of higher education, long-term
immobilization studies, an electronic resource library, and
long-term storage facilities. The Center's proposed
research projects support various Departmental elements,
primarily the Offices of Fissile Materials Disposition and
Defense Programs. The Office of Materials Disposition
provided programmatic direction and funding for fiscal years
1995 and 1996.   Defense Programs will provide programmatic
direction and funding beginning in fiscal year 1997.
Albuquerque had responsibility for management and oversight
of the cooperative agreement.

     The cooperative agreement's five primary objectives
were to:

     o establish a comprehensive, electronic archive of
       information about nuclear materials and evaluate and
       disseminate this information;

     o advance technical knowledge of weapons materials and
       the environmental impact, and health and safety issues
       related to the handling, recycling and disposition of
       these materials;

     o conduct site-specific environmental, geological,
       hydrological, health, safety, and monitoring studies;

     o establish an education and outreach program that
       includes a visitor/science center; and,

     o provide training at DOE sites on current approaches to
       the storage and packaging of nuclear materials.

     To accomplish the objectives, the State of Texas
contracted with the University of Texas at Austin to manage
the Center for the Texas Higher Education Consortium
composed of the University of Texas, Texas A&M University,
and Texas Tech University. The Center sponsored research
and education projects based on recommendations from
university professors, the Department, the Governor's
Office, and the Consortium. The Center's Governing Board
approved the projects and allocated the funds.

OBSERVATIONS AND CONCLUSIONS

     The audit determined that the Department has not
provided adequate management, direction, and control over
the Center's research projects. Early in our review, we
identified potential duplicative Center research with that
performed by the Department's national laboratories.
Subsequently, the Department's Office of Fissile Materials
Disposition (Materials Disposition), reviewed the Center's
fiscal year 1996 research projects and found that many of
them duplicated work performed at the national laboratories
and, therefore, would not benefit the Department. As a
result of its review, Materials Disposition recommended that
several projects be redirected or rescoped. Materials
Disposition also advised the Amarillo Area Office that many
of the Center's research tasks should be either coordinated
with the national laboratories or reviewed by the
Department's Office of Defense Programs to prevent
duplication of effort. As a result, the Center agreed to
redirect and rescope specific projects and to coordinate
with the national laboratories as recommended. Although we
were pleased with both the review and the Center's
corrective actions, we determined that more coordination and
review of the Center's projects was necessary.

     During our audit, the Department implemented two
actions affecting its involvement in Center activities.
First, the Department's Office of Defense Programs agreed to
share in the Center's funding for fiscal year 1997 and
provide full funding in fiscal year 1998. On November 15,
1995, the Principal Deputy Assistant Secretary for Defense
Programs assigned a project manager to begin reviewing the
Center's proposed fiscal year 1997 research projects when
available. Second, in May 1996, the Albuquerque Operations
Office assigned a technical point-of-contact to assist the
Contracting Officer's Technical Representative in
coordinating the Center's research with the national
laboratories. These two actions are significant because
they represent positive steps toward substantial involvement
in the cooperative agreement with the State of Texas.

     In our opinion, the finding in this report disclosed
material internal control weaknesses that management should
consider when preparing its yearend assurance memorandum on
internal controls.


                           PART II

                 FINDING AND RECOMMENDATIONS

                 Involvement in the Center s
                     Sponsored Research

FINDING

     The Code of Federal Regulations requires substantial
involvement between the Department and cooperative agreement
participant to share in the management, control, or
direction of project activities. In addition, Article IV of
the cooperative agreement with Texas established that the
Department had the right to review performance, provide
recommendations and guidance, and approve succeeding phases
of projects. The Department, however, has had limited
involvement in the Center's research projects. Our review,
as well as a subsequent review performed by the Office of
Fissile Materials Disposition, revealed that at least $1.8
million of the Center's research duplicated, to some extent,
research conducted by the Department's national laboratories.
In addition, Materials Disposition identified
Center projects which support Defense Programs activities,
but had not requested Defense Programs to review them. The
duplication occurred because responsibility for technical
review was assigned at a level without authority to fully
coordinate review of the Center's research projects with the
Department's national laboratories. As a result, the
Department cannot be certain that all the Center's research
is beneficial to the Department and does not duplicate
research performed by the Department's national
laboratories.

RECOMMENDATIONS

     We recommend the Manager, Albuquerque Operations
Office:

     1.    Ensure adequate Department involvement and adequate
           delineation of roles and responsibilities for
           managing, directing, and controlling the Center's
           research.

     2.    Establish a procedure with Headquarters Program
           Officials to ensure that research proposed by the
           Center does not duplicate other research initiated
           by the Department's national laboratories.

MANAGEMENT REACTION

     Management agreed with the audit recommendations.       Part
III of this report addresses management and auditor
comments.


                       DETAILS OF FINDING

     As established in Title 10 of the      Code of Federal
Regulations (CFR) Part 600.302 (b) and      (c), substantial
involvement between the Department and      the participant is
the only criterion which distinguishes      a grant from a
cooperative agreement. The CFR states       that substantial
involvement exists when:

     o    responsibility for the management, control, or
          direction is shared by the Department and the
          participant;

     o    responsibility for the performance of the project is
          shared by the Department and the recipient;

     o    the Department has the right to intervene in the
          conduct or performance of project activities for
          programmatic reasons.
     The Department incorporated the CFR requirements in
Article IV, "Substantial Involvement Between DOE and the
Recipient" of the cooperative agreement with Texas. This
agreement established the Department's right to:

     o   receive performance reviews and to provide
         recommendations and/or program guidance; and,

     o   provide prior approval and authorization to start
         work on the next phase if a project consists of more
         than one phase.

     The cooperative agreement also stated that the
Department may utilize technical monitors to provide
assistance and recommendations to the Department relating to
the work performed under the agreement. The use of such
technical monitors would ensure that research conducted at
the Center would benefit the Department.

DUPLICATED RESEARCH

     Our audit revealed that some of the Center's research
duplicated research conducted by the national laboratories
and thus, did not benefit the Department. To make this
determination, we requested technical personnel from Sandia,
Los Alamos, and Lawrence Livermore National laboratories to
conduct a limited review of 12 Center research projects.
Their review identified projects that duplicate research
conducted at the national laboratories. In one example, a
Los Alamos scientist commented on Center project,
"Disposition of Excess Weapons-grade Plutonium in Deep
Boreholes," funded for $50,000 in fiscal year 1995, stating
that the Center was addressing issues and proposing tasks
upon which Los Alamos had already addressed and published
its results. In another example, a Sandia scientist
commented on Center project, "Non-Destructive Assay of
Plutonium," funded for $78,000 in fiscal year 1995 that non-
destructive measurements of special nuclear material is a
major effort at Los Alamos. Both Sandia and Los Alamos
scientists questioned how meaningful work can be
accomplished without the Center's access to specialized and
classified information.

     Our review was followed by a limited review conducted
by Materials Disposition which was also assisted by
technical personnel from the national laboratories. This
review focused on 18 of 33 tasks related to Materials
Disposition activities from the Center's fiscal year 1996
Task Plans. However, according to Headquarters, Defense
Programs officials, Materials Disposition did not request
that they review the Center's fiscal year 1996 Task Plans.

     The Materials Disposition limited review revealed that
six of the Center's research projects duplicated work at the
national laboratories and, therefore, were not beneficial to
the Department. The extent of duplication varied from
extensive duplication where many of the tasks were
considered duplicative and unnecessary to moderate
duplication where some of the tasks were considered
duplicative. The following are examples where there was
significant duplication:

     o The Center's research on the "Consolidated Storage
       Facility Robotics and Monitoring," funded for about
       $802,000 in fiscal year 1996 will study the same
       areas where extensive R&D had been performed by the
       national laboratories. Consequently, Materials
       Disposition recommended that the work should be
       coordinated with the laboratories to prevent duplication.

     o The review also found that the Center's research on
       "Water Reactor Options," funded for $550,000 in fiscal
       year 1996, appeared to be redundant. The review pointed
       out that the proposed tasks are completed or are ongoing
       at other Departmental sites, and specifically cited the
       creation of a Mixed Oxide Fuel data repository at the Oak
       Ridge National Laboratory.

     o In a third example, the review commented that the
       proposed research on the "Transportation of Mixed Oxide
       Fuel," funded for $300,000 in fiscal year 1996, may not
       be needed because the fuel will be transported from the
       fabricator to the reactor in the Safe Secure Transport
       System. Thus, additional transportation studies appear
       to be redundant. In addition, the review noted that the
       modeling for plutonium dispersal from transportation
       incidents has been done by the laboratories and is routinely
       used in the Department's transportation of special nuclear
       materials as well as weapons.

Because the review found apparent redundancy, Materials
Disposition recommended that the Center either redirect the
research or coordinate with the national laboratories to
prevent duplication.

     In response to Materials Disposition's review, the
Center agreed to redirect several research projects and to
coordinate its research activities with the national
laboratories. In its response to the comments relating to
the study on "Consolidated Storage Facility Robotics and
Monitoring," for example, the Center stated it was
coordinating with Sandia and had scheduled meetings with Los
Alamos to better understand other ways in which the
technology could fit into the plans for long term storage.
The Center further stated that it was conducting research in
order that the results could be incorporated at the design
specification stage. The Center also indicated it would
reorganize its project on the "Transportation of Mixed Oxide
Fuel" and will meet with Sandia personnel to clarify needs.

     Currently, Materials Disposition is reviewing the
Center's corrective actions to determine if they are
acceptable. Defense Programs does not plan to review Fiscal
Year 1996 projects.

ROLES AND RESPONSIBILITIES

     The duplication of research occurred because
Albuquerque had not clearly defined and assigned roles and
responsibilities. The cooperative agreement was funded
through the Department's Office of Fissile Materials
Disposition and contracting authority was delegated to the
Albuquerque Operations Office. After the agreement was
awarded, Albuquerque transferred full responsibility for
contract administration and technical review to the Amarillo
Area Office. Amarillo personnel involved in this effort
found that they had responsibility but felt they lacked the
authority to coordinate the Center's research efforts with
work at the Department's national laboratories. Thus,
during the first year of operation, there was little
coordination of the Center's research efforts with the
Department's laboratories.

     During the course of this audit, Amarillo asked
Albuquerque to reassume the responsibility for contracting
and coordinating the Center's research with the Department's
national laboratories. Albuquerque reassigned contracting
responsibility for a period of time but has since determined
that responsibility for contracting and contract
administration remain in Amarillo. In May 1996, Albuquerque
assigned a technical point-of-contact to assist the
Contracting Officer's Technical Representative in
coordinating the Center's research activities with the
Department's national laboratories.

     Since the award of the cooperative agreement in
November 1994, Albuquerque prepared several draft versions
of a protocol document which defines the roles and
responsibilities among various organizations within the
Department regarding the management and administration of
the cooperative agreement. However, the Departmental
organizations did not reach agreement on their respective
roles and responsibilities and, consequently the drafts were
neither finalized nor approved. Albuquerque is hopeful that
the protocol document will be finalized and will alleviate
the programmatic and administrative issues in managing,
directing, and controlling the cooperative agreement with
the State of Texas.


EFFECT

     The full effect of the duplication of research with the
Department's laboratories is unknown. We did not attempt to
project the dollar effect because of multi-year funding.
The extent of duplication varied from project to project and
the fact that all projects were not reviewed. Projects
identified as having some duplication had two year funding
of about $1.8 million. In this era of limited budgets, the
Department must try to get maximum benefit from its research
dollars and must, therefore, ensure that its research
dollars are not used to fund duplicative projects.

                          PART III

               MANAGEMENT AND AUDITOR COMMENTS

     In responding to our initial draft report, the Deputy
Assistant Secretary for Program Support, Defense Programs
and the Albuquerque Director, Contracts and Procurement
Division concurred with our recommendations. A summary of
management's comments and our replies follows.

     Recommendation No. 1: Ensure adequate Department
involvement and adequate delineation of roles and
responsibilities for managing, directing, and controlling
the Center's research.

     Management Comments: Defense Programs and Albuquerque
concurred with the recommendations. Albuquerque, however,
used the term "partially concur" in their response. The
protocol is being finalized by the Albuquerque technical
point-of-contact who will coordinate the Center's research
activities with the Department's program offices and
national laboratories as appropriate. He will ensure the
Center's research activities are beneficial to the
Department and are not duplicating research performed by the
Department's national laboratories. Defense Programs
expects the protocol document to be finalized by September
30, 1996.

     Auditor Comments: Revision 10 of the draft protocol
document dated July 26, 1996, provides for the Albuquerque
Weapons Quality Division to ensure that the Center's task
proposals are unique and not duplicative of ongoing programs
at Department laboratories. If the Weapons Quality Division
technical point-of-contact can ensure non-duplication for
all the Center's activities, this protocol should be
satisfactory. Management's comments are responsive to the
recommendation.

     Recommendation No. 2: Establish a procedure with
Headquarters Program Officials to ensure that research
proposed by the Center does not duplicate other research
initiated by the Department's national laboratories.

     Management Comments: Defense Programs and Albuquerque
concurred with the recommendation. Albuquerque stated that
the protocol document discussed under Recommendation No. 1
incorporates the responsibility for the Albuquerque
technical point-of-contact to coordinate with the national
laboratories to ensure the Center's research activities
benefit the Department and do not duplicate research being
or already performed by the national laboratories.

     Auditor Comments: As discussed above, if the Weapons
Quality Division technical point-of-contact can ensure non-
duplication for all the Center's activities, this protocol
should be satisfactory. Management's comments are
responsive to the recommendation.

     Management Comments on Part IV, Other Matters:
Management also provided comments on two concerns we raised
related to areas of financial administration of the
Cooperative Agreement. These comments are incorporated into
Part IV.



                           PART IV

                        OTHER MATTERS

     During the audit, we had concerns about two items
relating to the financial administration of the cooperative
agreement with the State of Texas. First, the Department
provided obligations far in excess of cash needs. Second,
the State has not provided the Department an accounting of
the State's matching share. We are not making
recommendations on these matters, but we believe that
management should address these concerns.

EXCESS OBLIGATIONS

     To fund the cooperative agreement, the Department
obligated a total of $9 million in fiscal year 1995 to
support the Center's first year funding. During the first
year, Texas demonstrated an actual cash need of about $2
million resulting in a carryover of $7 million to fiscal
year 1996. On January 31, 1996, the Department obligated an
additional $7.5 million bringing the total obligated but
uncosted balance to about $14.5 million. The State has not
provided the Department with projected cash needs. We
believe that the Department should only obligate funds based
on projected cash needs.

     In response to our initial draft report, Management
stated that the Department's obligation of funds have been
consistent with approved budgets and task plans proposed by
the Center. The uncosted balance of $14.5 million
identified in the audit is a result of procedures utilized
by the State to award research contracts approved by the
Center's Governing Board and invoicing of costs associated
with work performed under the research contracts. Because
of the layers of administration from award of a research
contract to preparation, submission, review, and approval of
invoices, the collection of costs has been slow. Thus,
obligations by the Department show up as large uncosted
balances. To alleviate this problem, Texas will begin
reporting costs monthly to the Department of Health and
Human Services, the agency responsible for payments to Texas
under the agreement. Health and Human Services will report
costs to the Department electronically for posting to the
Financial Information System each month.
ACCOUNTABILITY FOR THE STATE'S MATCHING SHARE

     According to the cooperative agreement, the
Department's funding share was $49 million and Texas' share
was $2.45 million (5 percent) to include cash or allowable
in-kind contributions of services, materials, and/or
property. To date, Texas has not provided the Department
with financial reports stating the extent and application of
its purported cost share. For example, SF-269 "Financial
Status Report," which Texas is required to submit as part of
its reporting requirement, requests information on both the
federal and the recipients share of net outlays. The
Financial Status Report submitted on February 15, 1996,
which covers the period November 1, 1995 to January 31,
1996, states that the total federal outlay was $673,663 and
the recipient's net outlay was left blank. This omission
led us to question whether Texas has contributed its share
of resources to support the Center as required by the
agreement. We believe that the Department should obtain a
full accounting from Texas for the matching share of costs.

     Management stated that through April 1996, Texas
reported its cost share of 5 percent of the Department's
funded amount. Management added that there is no
requirement for cost share reporting during each reporting
period.


Report No. WR-B-96-08


                        CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make
our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing
your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions
if they are applicable to you:

1.   What additional background information about the
     selection, scheduling, scope, or procedures of the
     audit or inspection would have been helpful to the
     reader in understanding this report?

2.   What additional information related to findings and
     recommendations could have been included in this report
     to assist management in implementing corrective actions?

3.   What format, stylistic, or organizational changes
     might have made this report's overall message more clear
     to the reader?

4.   What additional actions could the Office of Inspector
    General have taken on the issues discussed in this
    report which would have been helpful?

Please include your name and telephone number so that we may
contact you should we have any questions about your
comments.

Name ____________________________ Date______________________

Telephone _______________________ Organization______________
___

When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may
mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
